No. 20-347
IN THE

Supreme Court of the United States
CHARLES MALCOLM SPIVEY, JR.
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Eric J. Brignac, hereby certify that I am a member of the Bar of this Court,
and that I have this 20th day of November 2020, caused a paper copy of the Reply Brief
In Support of Petition for Writ of Certiorari to be delivered to the Court and an
electronic version of the document to be delivered to:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

/s/ Eric J. Brignac
Eric J. Brignac

